                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A11060044                                                                       Page 1 of 1



                Our investigation determined that the Subject 1 knowingly fabricated data and provided
        the data to his research colleagues. NSF made a finding of research misconduct by the Subject;
        sent a letter of reprimand to the Subject; debarred the Subject for one year required the Subject to
        submit certifications to the Assistant Inspector General for Investigations (AlGI), NSF OIG for
        two years after debarment ends; required the Subject's employer to submit assurances to the
        AlGI of NSF OIG for two years after debarment ends; prohibited the Subject from serving as a
        reviewer of NSF proposals for two years; and required the Subject to provide certification to the
        AlGI that he has completed a course on the responsible conduct of research.

                 This memo, the attached Report of Investigation, and the letter from NSF with a finding
         of research misconduct constitute the case closeout. Accordingly, this case is closed.




         1




NSF OIG Fonn 2 (11102)
--.·1                                                                                -.··1




               National Science Foundation
                Office of Inspector General




                          Report· of Investigation
                         Case Number·A11060044
                                September 27, 2013

                                This Report of Investigation is provided to you
                                          FOR OFFICIAL USEONLY.
        It contains protected personal information, the unauthorized disclosure of which may result in
        personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
        disclosed within NSF only to individuals who must have knowledge of its contents to facilitate
        NSF's assessment and resolution of this. matter. This report may be disclosed outside NSF only
        under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 & 552a. Please take
        appropriate precautions handling this report of investigation.
                                                 i   i           .. 1




SENSITIVE                                                                           SENSITIVE


                                     Executive Summary

A University's investigation established that:

   •   The Subject fabricated two images in performance of sponsored research.

OIG concluded that: ·

   •   Act: The Subject fabricated two images in performance of sponsored research;
   •   Intent: The Subject acted knowingly; and
   •   Standard of Proof: A preponderance ofthe evidence supports the conclusion that the
       Subject's acts were a significant departure from the standards of the research community,
       and therefore constitute research misconduct.

OIG recommends that NSF:

       •   Send the Subject a letter of reprimand notifying him that NSF has made a finding of
           research misconduct.
       •   Debar the Subject for 1 year.
       •   Require the Subject to certify to the Assistant Inspector General for Investigations
           (AlGI) his completion of a responsible conduct of research training program and
           provide documentation of the program's content within 1 year ofNSF's finding. The
           instruction should be in an interactive format (e.g., an instructor-led course).·

For a period of2 years from the date ofNSF's finding:
       • Require for each document (proposal, report, etc.) to which the Subject contributes
           for submission to NSF (directly or through his institution),
               o the Subject to submit a certification to the AlGI that the document does not
                  contain plagiarism, falsification, or fabrication.
               o the Subject to submit assurances from a responsible official of her employer to
                  the AlGI that the document does not contain plagiarism, falsification, or
                  fabrication.
        • Bar the Subject from participating as a peer reviewer, advisor, or consultant for NSF.




                                                     2
SENSITIVE                                                                                                  SENSITIVE


                                            Universitv' s Investigation

       We received a university report 1 describing an investigation of alle~ed research
misconduct by a graduate student Subject2 who had received NSF support. The report
concluded that the Subject improperly manipulated two scanning electron microscope (SEM)
images, and presented the images to members of his research group. The Subject manipulated
the edges of the structures in the images to make them appear sharper than actually measured.
The following facts were established by the university investigation:

•   the Subject provided an SEMimage to a research colleague 4 on July 13, 2009 that appeared
    to be manipulated5                               .                                          .
•   the colleague recovered the original data file from the SEM instrument, and concluded that
                                           6
    the provided image was manipulated
•   a postdoctoral fellow 7 in the research lab was apprised of the situation and contacted the
    supervising professor8 on July 21, 2009                       ··
•   the Subject provided a second SEM image to a research colleague on or about July 21, 2009
    that appeared to be similarly manipulated9
•   the Subject met with the professor on July 27, 2009 and admitted to manipulation of the SEM
    images when confronted with the original data                                      ,
•   the Subject immediately left the professor's research lab, and left the university graduate
    school shortly thereafter

The university investigation concluded that the altered SEM images 10 were not used in any
research, presentation, publication, or proposal. 11 The university investigation did not uncover
any other instances of alleged research misconduct by the Subject.


1
  The university. assessment is set out in a letter; the letter and related documents are included at Tab 1, and the letter
is referred to herein as the university report. The university initially handled the matter as an academic dishonesty
mvestigation. The university report by the Academic Dishonesty Committee was reviewed by the university Office
of Research Integrity (ORl). ORl did not convene a separate investigation committee or prepare a separate report.
The ORI Director interviewed relevant individuals to confirm the facts of the case. ORl actions are described on
fages 1-6 of the cover letter at Tab 1.
                                                                                                                              ,,
                                                                                                                              :!
3
                                                                                                                              :.



4
  University report, page 19 (Tab 1).
5
  According to the charge summary in the university report, the first manipulated SEM image was provided to
            another graduate student involved in the same research (page 13). However, the email from the Subject
for this date shows that the image was sent to                          (pages 4 and 19) ..
6
  University report, page 13. For instance, the time and date stamp on the original and manipulated image are
identical. See Figure 1a and 1b on page 15 of the report.                         ·
7
8
9
  University report, page 13 and Figure 2a and 2b (page 16) .. The time and date stamps are again identical. The
university report states that the image was provided to the Subject on July 21, 2009 (page 13 ), but the date on the
email from the Subject is July 20, 2009 (page 20).
10
   The SEM images were to "produce features in the micrometer scale that were apart about 50 run from neighboring
elements." (University report, page 4, (Tab 1)).


                                                             3
SENSITIVE                                                                                              SENSITIVE



        The Subject did not provide information to the ADC committee, or comments on the
report. University officials dismissed the Subject from the university in September 2009 with a
notation on his transcript for academic dishonesty.

                                                OIG's Investigation

        We initiated an investigation after receiving the university's report. We contacted the
Subject multiple times to invite his comments on the university report and actions, but received
no response. We established that the Subject departed the United States in September 2009, and
we concluded that the Subject returned to a Canadian university where he had been previously
          12
enrolled.

        We determined that the University investigation was complete and followed reasonable
procedures. 13 The investigation identified that time stamps on the data files and background
noise in images obtained directly from instrument files are identical with those in manipulated
images y,resented by the Subject to his colleagues, thereby establishing the source of the
images. 4 The investigation collected emails that accompanied that transmittal of the
manipulated images by the Subject to his colleagues, and interviewed the Subject's research
colleagues. 15 .

                                                 OIG's Assessment

       A finding of research misconduct by NSF requires that 1) there be a significant departure
from accepted practices of the relevant research community, that 2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that 3) the allegation be proved by a
preponderance ofthe evidence. 16




11
     The report states that the images were acquired as part of research work supported by
                                                                                                  .
12
  The Subject worked with                                                      from approximately September 2007
through September 2008, at which time the Subject enrolled at                              The conclusion that he has
returned to



                                        ). We used the listed email address to further attempt to contact the Subject.
13
   See n.l above. The university's written procedures state that allegations of research misconduct are to be handled
solely by ORl, and the universitY initially dealt with the matter as alleged academic dishonesty. However, the ORl
Director subsequently conducted an overview of the initial investigation, and in our view the overall process was
fair to the Subject and resulted in a thorough collection and fair assessment of the evidence.
14
   The emails from the Subject conveying the images are reproduced on pages 19 and 20 of the university report
(Tab 1).
15
   A summary of the interviews is on pages 4 and 5 of the university report (Tab 1).
16
   45 C.P.R. § 689.2(c).


                                                            4
                   --1                                                              :   ;




SENSITIVE                                                                                   SENSITIVE


                                             The Act

        The Subject manipulated SEM images to create features with the desired properties.
Visual comparison of the original and ma11ipulated images shows that dark pixels in the
manipulated images artificially delineated the circular edges of the structures, as shown in the
Figure.




                                                  5
 SENSITIVE                                                                               SENSITIVE


         In this Figure, the original images on the left are contrasted with the altered images on the
 right. The green and magenta areas on the central. overlapped images highlight the portions of
 the images that were manipulated. The concordance in the background noise in the images is
 evident.

         SEM images are often processed by software (see
 ncsa.illinois.edu!~kindr/phd/PARTl.PDF).        These processing techniques include contrast
  enhancement, grey level histogram modification, and noise reduction methods. Community
  standards require that processing be accompanied by a written description (see, e.g.,
  ammrf.org.au!myscope/sem/practice/principles/perfecting/). The manipulation of the SEM
' image to create artificially sharp edges is a significant departure from the community standards
  of image processing, and constitutes fabrication.

                                            State of Mind

         We conclude that the Subject's intent in his admitted manipulation of the images was
 knowing. The Subject retrieved the original image file, opened the file with a program such as
 Photoshop, changed the image through editing such as duplicate, copy and paste, and sharpen
 tools, saved the manipulated image, and emailed it to his colleague with a different file name
 from the original data. These actions support a knowing level of intent.

                                           Burden of Proof

         We conclude that a preponderance of the evidence shows that the Subject knowingly
 fabricated the images in a significant departure from the standards of the relevant research
 community, and that the Subject therefore committed research misconduct.

                                 OIG's Recommended Disposition

        When deciding what appropriate action to take upon a finding of misconduct, NSF must
 consider: (1) how serious the misconduct was; (2) the degree to which the misconduct was
 knowing, intentional, or reckless; (3) whether it was an isolated event or part of a pattern;
 (4) whether it had a significant impact on the research record, research subjects, other
 researchers, institutions or the public welfare; and (5) other relevant circumstancesY

                                             Seriousness

          The Subject fabricated SEM images, presented them as results of his research to evidence
 his mastery of the experimental procedures. Left undiscovered, this misrepresentation of his
 abilities would undermine the integrity of his future research.

                                                Pattern

        The Subject fabricated two SEM images over two weeks. There is no evidence for other
 instances of research misconduct in the year that he was enrolled at the university.

 17
      45 C.F.R. § 689.3(b).


                                                   6
                                                                               .. 1
. 1




      SENSITIVE                                                                             SENSITIVE



                                              Impact on the Research Record

             The Subject's fabrication of the images had no subsequent scientific impact, as it was
      immediately discovered, and the images were not included in any report, presentation, or
      publication.

             We contacted the Subject at his current email address to secure an address to which we
      could send a draft copy of this report of investigation for his comments. We received no reply.

                                                     Recommendations

               We recommend that NSF:

               •   Send the Subject a letter of reprimand notifying him that NSF has made a finding of
                   research misconduct. 18
               •   Debar the Subject for 1 year. 19
               •   Require the Subject to certify to the Assistant Inspector General for Investigations
                   (AlGI) his completion of a responsible conduct of research training program and
                   provide documentation of the program's content within 1 year ofNSF's finding. 20
                   The instruction should be in an interactive format (e.g., an instructor-led course).

      Fora period of2 years as of the date ofNSF's fmding:
             • Require for each document (proposal, report, etc.) to which the Subject contributes
                for submission to NSF (directly or through her institution),
                    o the Subject to submit a certification to the AlGI that the document does not
                        contain plagiarism, falsification, or fabrication; 21 and
                    o the Subject to submit assurances from a responsible official of her employer to
                        the AlGI that the document does not contain plagiarism, falsification, or
                        fabrication. 22                       .                                  ·
             • Bar the Subject from participating as a peer reviewer, advisor, or consultant for
                NSF. 23




      18
         A Group I action 45 .C.P.R. 689.3(a)(l)(i).
      19
         A Group III action 45 C.F.R. 689.3(a)(3)(iii).
      20
         This action is similar to Group I actions 45 C.P.R. 689.3(a)(l).
      21
         This action is similar to 45 C.F.R. 689.3(a)(l)(iii).
      22
         A Group I action 45 C.F.R. 689.3(a)(l)(iii).
      23
         A Group III action 45 C.F.R. 689.3(a)(3)(ii).


                                                                 7
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




       OFFlCE OF THE
         DIRECTOR




CERTIFIED MAIL ~-RETURN RECEIPT REQUESTED




         Re:      Notice ofProposed Debarment and Notice of Research Misconduct
                  Determination


Dear

        a
While graduate student at                             conducting research funded by the National
Science Foundation ("NSF"), you fabricated scanning electron microscope (SEM) images in
connection with this research. The details of said fabrication are set forth in the attached report
of the NSF Office of the Inspector General ("OIG").                                        · ·

In light of your misconduct, this letter serves as formal notice that the NSF is proposing to debar
you from directly or indirectly obtaining the benefits of Federal grants for a period of one year.
During your period of debarment, you will be precluded from receiving Federal financial and
non-financial assistance and benefits under non-procurement Federal programs and activities. In
addition, you will be prohibited from receiving any Federal contracts or approved subcontracts
under the Federal Acquisition Regulations ("FAR"). Lastly, during your debannent period, you
will be barred from having supervisory responsibility, primary management, substantive control
over, or critical influence on, a grant, contract, or cooperative agreement with any agency ofthe
Executive Branch of the Federal Government.

In addition to proposing your debarment, I am requiring that you submit certifications, and that a
responsible official of your employer submit assurances, that any proposals or reports that you
submit to NSF do not contain plagiarized, falsified, or fabricated material. This requirement will
be in effect for two years from the expiration of your debarment period.       ·
                                                                                            Page2
Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... " 45 CFR 689.l(a).
Fabrication is defmed as "making up data or results and recording or reporting them." 45 CFR
68 9.1 (a)(1 ). A fmding of research misconduct requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and·
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and·                                                            ·
       (3) The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

As the OIG's report demonstrates, you improperly manipulated two SEM images and presented
the images to members of your research group. Your manipulation of these. images and reporting
them to your colleagues unquestionably constitutes fabrication. I therefore conclude that your
actions meet the applicable definition of"research misconduct" set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
fabrications were committed intentionally and constituted a significant departure from accepted
practices of the relevant research community. I am, therefore, issuing a finding of research
misconduct against you. /

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities fro in NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(l). Group If actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR
689.3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; arid debarment or suspension from
participation in NSF programs. 45 CFR 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; the fact that it was committed intentionally; the fact that the
misconduct had no effect on the research record; and the fact that, while occurring over two
weeks, there was no pattern of other fabrication misconduct. I have also considered other
                                                                                            Page 3
relevant circumstances. 45 CFR 689.3(b).

I, therefore, take the following actions:

    •   For two years after the expiration of your debarment period, you are required to submit
        certifications that any proposals or reports you submit to NSF do not contain plagiarized,
        falsified, or fabricated material;
    •   For two years after the expiration of your debarment period, you are required to submit
        assurances from a responsible official of your employer that any proposals or reports you
        submit to NSF do not contain plagiarized, falsified, or fabricated material;·.
    •   For two years from the date of this letter, you are prohibited from serving as an NSF
        reviewer, advisor, or consultant; and
    •   You are required to complete a comprehensive responsible conduct of research training
        course within one year from the date of this letter and provide documentation of the
        program's content. The instruction should be in an interactive format (e.g., instructor led
        course, workshop, etc) and should include a discussion of data fabrication.

All certifications and assurances should be submitted in writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia, 22230.


Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:


        (b)     Violation ofthe terms of a public agreement or transaction so serious as to affect
                the integrity of an agency program, such as-


                (1)     A willful failure to perform in accordance with the terms of one or more
                        public agreements or transactions; or


                (3)     A willful violation of a statutory or regulatory provision or requirement
                        applicable to a public agreement or transaction; or


        (d)     Any other cause of so serious or compelling a nature that it affects your present
                responsibility.
                                                                               ·:   l




                                                                                              Page4
In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. ·In this case, you knowingly and willfully
fabricated research data, undermining the public integrity of funded research, and violating the
terms ofNSF support. Thus, your actions support a cause for debarment
under 2 CFR 180.800(b) and (d).


Length of Debarment

 Debarment must be for a period commensurate with the seriousness of the causes upon which an
 individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
 exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
 180.865. Having considered the seriousness ofyour actions, as well as the relevant aggravating
 and mitigating factors set forth in 2 CFR 180.860, we are proposing your debarment for one
 year.


 Appeal Procedures for Finding of Research Misconduct and Procedures Governing
 Proposed Debarment

Appeal Procedures for Finding of Research Misconduct

· Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
  finding, in writing, to the Director of the Foundation. 45 CFR 689.1 O(a). Any appeal should be
  addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
  Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
  decision on the finding of research misconduct will become final. For your information, we are
  attaching a copy of the applicable regulations.


 Procedures Governing Proposed Debarment

 The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
 decision-making. Under these regulations, you have 30 days after receipt of this notice to
 submit, in person or in writing, or through a representative, information and argument in
 opposition to this debarment. 2 CFR 180.820. Comments submitted within the 30-day period
 will receive full consideration and may lead to a revision of the recommended disposition. If
 NSF does not receive a response to this notice within the 30-day period, this debarment will
 become final.

 Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
 Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
 Virginia 22230.
                                                                                        Page 5

For your information, we are attaching a copy of the Foundation's regulations on non-
procurement debarment and FAR Subpart 9.4. Should you have any questions about the
foregoing, please contact Peggy Hoyle, Deputy General Counsel, at (703) 292-8060.




                                                  Sincerely,

                                               C;;;.J~ifrz~-7-v~·-­
                                                  FaeKorsmo
                                                  Senior Advisor to the Director



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CPR Part 689
                                                                       -.   -- 1




                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230
          :•




    +~~;¥:
    OFFICE OF THE
   DEPU1Y DIRECTOR




CERTIFIED MAIL -RETURN RECEIPT REQUESTED




        Re:    Notice of Debarment

Dear

On                      , the National Science Foundation ("NSF") issued you a Notice of
Proposed Debarment (''Notice") in which NSF proposed to debar you from directly or indirectly
obtaining the benefits of Federal grants for a period of one year. As reflected in the Notice, NSF
proposed to debar you because you fabricated data while performing NSF-funded research. In·
that Notice, NSF provided you with thirty days to respond to the proposed debarment.
The period for submitting a response to NSF has elapsed, and NSF has not received a response
from you. Accordingly, you are debarred until              2015.

Debarment precludes you from receiving Federal financial and non-financial assistance and
benefits under non-procurement Federal programs and activities unless an agency head or
authorized designee makes a determination to grant an exception in accordance with2 CFR
180.135. Non-procurement transactions indude grants, cooperative agreements, scholarships,
fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for
specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR subpart 9.4 for the period of this debarment. 2
CFR 180.925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency of the Executive Branch oftl).e Federal Government.

Please note that, in the Notice, NSF also took the following actions against you, which continue
to remain in effect:

    •   For two years from the end of your debarment period, you are required to submit
                                                                                                Page2

       certifications that any proposals or reports you submit to NSF do not contain plagiarized,
       falsified, or fabricated material;
   •   For two years from the end of your debarment period, you are required to submit
       assurances by a responsible official of your employer that any proposals or reports you
       submit to NSF do not contain plagiarized, falsified, or fabricated material;
   •   You are prohibited from serving as an NSF reviewer, advisor, or consultant through
                      2016; and
   •   You are required to complete a comprehensive responsible conduct of research training
       course by                ,2015 and provide documentation of the program's content. The
       instruction should be in an interactive format (e.g., instructor led course, workshop, etc.)
       and should include a discussion of data fabrication.

Should you have any questions about the foregoing, please contact                 , Assistant
General Col!USel, at (703) 292-  .



                                                     Sincerely,

                                                     Ccn-._ fl-. ~~·
                                                     Cora B. Marrett
                                                     Deputy Director
